 FY 2009 PERFORMANCE REPORT




SOCIAL SECURITY ADMINISTRATION
OFFICE OF THE INSPECTOR GENERAL
                  Table of Contents



Executive Summary…………………………………………………..              1

Performance Results……………………………………….…………             2

Performance Discussion and Analysis ……………………….………   3

    Goal 1 – Impact ……………………………………………….. 3

    Goal 2 – Value ………………………………………………… 5

    Goal 3 – People ………………………………………………... 8

Historical Comparison………………………………………………… 10
                MISSION STATEMENT



By conducting independent and objective audits, evaluations and
 investigations, we inspire public confidence in the integrity and
  security of Social Security Administration (SSA) programs and
operations and protect them against fraud, waste and abuse. We
  provide timely, useful and reliable information and advice to
        Administration officials, Congress and the public.




                 VISION and VALUES


     We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking new ways to
    prevent and deter fraud, waste and abuse. We commit to
   integrity and excellence by supporting an environment that
 provides a valuable public service while encouraging employee
development and retention and fostering diversity and innovation.
                            EXECUTIVE SUMMARY




This 2009 Performance Report (i.e. Report) focuses on the Office of the Inspector
General’s (OIG) results for the fourth year of our Fiscal Year (FY) 2006-2010 Revised
Strategic Plan. We operate within a framework set by three general goals: Impact,
Value and People. These goals are divided into 14 separate performance measures. For
FY 2009, we successfully met the targets for all 14 of the performance measures.

We work to have a positive impact on SSA programs and operations by enhancing their
integrity, efficiency and effectiveness. During FY 2009 our investigators evaluated and
responded to 96 percent of all allegations received within 45 days. Our auditors also had
significant impact. A total of 92 percent of audit reports were issued within 1 year of
their respective entrance conferences.

Our organization strives to provide valuable products and services in a timely manner to
Congress, SSA, and other key decision makers while sustaining a positive return for each
tax dollar invested in OIG activities. For FY 2009 we generated a positive return of $85
for every tax dollar invested.

The collective efforts of our employees continue to be the driving force behind this
organization’s success in meeting its mission. OIG leadership fosters an environment
where employees can realize their potential through training and developmental
programs. For FY 2009, 99 percent of OIG staff received 40 or more hours of
appropriate developmental and skill enhancement training which demonstrates OIG’s
commitment of having a well-trained and proficient workforce.




November 2009               SSA OIG FY 2009 Performance Report             Page 1
                                    PERFORMANCE RESULTS


                                                                                             GOALS
GOAL                     DESCRIPTION                              TARGET RESULT           MET    NOT
                                                                                                 MET
                                                   IMPACT
       Maintain an annual acceptance rate of at least
 1.1                                                               85%         98%            X
       85 percent for all recommendations.
       Through FY 2010, achieve a 5-year average
       implementation rate of 85 percent for accepted
 1.2                                                               85%         88%            X
       recommendations aimed at improving the integrity,
       efficiency and effectiveness of SSA.
       Achieve a positive action on at least 75 percent of all
 1.3                                                               75%         75%            X
       cases closed during the FY.
                                                    VALUE
       Generate a positive return of $6 for every tax dollar
 2.1                                                              $6 to $1   $85 to $1        X
       invested in OIG activities.
       Evaluate and respond to 90 percent of all allegations
 2.2                                                               90%         96%            X
       received within 45 days.
       Complete investigative fieldwork on 75 percent of all
 2.3                                                               75%         89%            X
       cases within 180 days.
       Respond to 90 percent of congressional requests within
 2.4                                                               90%        100%            X
       21 days.
       Take action on 90 percent of Civil Monetary Penalty
 2.5                                                               90%         97%            X
       (CMP) subjects within 30 days of receipt.
       Achieve a positive external user assessment rating of
 2.6                                                               85%         92%            X
       85 percent for product-service quality.
       Issue 78 percent of final audit reports within 1 year of
 2.7                                                               78%         92%            X
       the entrance conference with SSA.
       Complete 85 percent of requests for legal advice and
 2.8                                                               85%         98%            X
       review within 30 days.
                                                   PEOPLE
 3.1   Achieve an annual attrition rate of 5 percent or less.       5%         4%             X
       Conduct an annual employee job-satisfaction survey
 3.2   and implement corrective action plans to identify areas     75%         78%            X
       where improvement is needed.
       Ensure that 90 percent of OIG staff receives 40 or
 3.3   more hours of appropriate developmental and                 90%         99%            X
       skill-enhancement training annually.




         November 2009                 SSA OIG FY 2009 Performance Report            Page 2
                        PERFORMANCE DISCUSSION
                             AND ANALYSIS


This section provides detailed performance information, including a description of our
Strategic Plan goals aimed at achieving success in each of the 3 general areas. We state
each goal, its associated results and describe the method of calculation. We also discuss,
where appropriate, why we believe we were successful or unsuccessful in meeting our
goals.


  Goal 1 - IMPACT
                Enhance the integrity, efficiency and effectiveness of SSA
                               programs and operations.

Strategies to attain this goal include:

    1. Promote an OIG-wide process for cross-component communications on potential
       programmatic and operational vulnerabilities.

    2. Communicate with the Agency to identify mission-critical issues and operations
       that would benefit from OIG audit and investigation services and develop
       practical solutions to address identified weaknesses or deficiencies.

    3. Prioritize investigations, audits and counsel actions to effect more efficient and
       effective SSA programs and operations.


              Maintain an annual acceptance rate of at least            FY 2009 Result
 Goal 1.1
              85 percent for all recommendations.                         98 Percent

This measure is calculated by dividing the number of legislative, policy and regulatory
recommendations accepted by SSA and/or Congress (included in proposed legislation)
during the FY by the total number of recommendations with a management decision and
legislative proposals made during the FY.

For FY 2009, our annual acceptance rate was 98 percent, exceeding our 85 percent goal. Of
the 238 recommendations we submitted during this period that have a management
decision, SSA agreed with 234.




November 2009                 SSA OIG FY 2009 Performance Report             Page 3
              Through FY 2010, achieve a 5-year average
              implementation rate of 85 percent for accepted               FY 2009 Result
 Goal 1.2
              recommendations aimed at improving the                         88 Percent
              integrity, efficiency and effectiveness of SSA.

This measure is calculated by dividing the total number of accepted recommendations
implemented by SSA during the past 5 FYs by the total number of recommendations SSA
agreed to implement during the past 5 FYs.

Since SSA needs sufficient time to implement the recommendations it has agreed to, there is
a 1-year lag in this calculation. Thus, for FY 2009 we are reporting the 5-year period
covering FYs 2004 through 2008. Our average implementation rate for accepted audit
recommendations was 87.6 percent, exceeding our 85 percent goal. During this period,
SSA implemented 1,349 of 1,539 accepted recommendations.

              Achieve a positive action on at least 75                   FY 2009 Result
 Goal 1.3
              percent of all cases closed during the FY.                   75 Percent

This measure is calculated by dividing the total closed cases that resulted in a positive
action during the FY by the total cases closed during the FY. If the subject has been
sentenced, Civil Monetary Penalties imposed, and/or an administrative action has been
taken against the subject, it is considered a positive action on the closed case. In addition, if
certain money types have been collected or if benefits were terminated, reduced or
suspended, or certain referrals have been made it is considered a positive action.

For FY 2009, we closed 5,767 out of 7,648 investigations with a positive action. This 75.4
percent performance rate exceeds our 75 percent target.




November 2009                 SSA OIG FY 2009 Performance Report               Page 4
  Goal 2 - VALUE
  Provide quality products and services of value in a timely manner to Congress, SSA
  and other key decision-makers while sustaining a positive return for each tax dollar
                              invested in OIG activities.

Strategies used to attain this goal include:

   1. Maintain a “positive-return” culture within OIG.

   2. Ensure continual improvement of OIG products by using a product and service
      quality assessment instrument to measure external user satisfaction.

   3. Implement best practices to ensure quality and timeliness of OIG products and
      services.

   4. Utilize information technology investments to enhance OIG work products and
      service delivery.

              Generate a positive return of $6 for every tax          FY 2009 Result
 Goal 2.1
              dollar invested in OIG activities.                        $85 to $1

This measure is calculated by dividing the total amount of all OIG savings identified during
the FY by the total amount of appropriated funds during the same period.

For FY 2009, we generated a return of $85 for every dollar invested in us by the taxpayer.
This rate of return was bolstered by 3 audit reports entitled, Supplemental Security Income
Recipients with Unreported Vehicles (A-02-08-28038); The Social Security
Administration’s Unprocessed Annual Earnings Enforcement Selections (A-09-08-18047);
and Follow-up on Disabled Title II Beneficiaries with Earnings Reported on the Master
Earnings File (A-01-08-28075). In these reports, we identified over $2.7 billion in
Questioned Costs.

              Evaluate and respond to 90 percent of all               FY 2009 Result
 Goal 2.2
              allegations received within 45 days.                      96 Percent

This measure is calculated by dividing the total number of allegations closed or referred
within 45 days during the FY by the total number of allegations closed or referred during
the FY.

For FY 2009, we evaluated and responded to 96.4 percent of all allegations received within
45 days. Of the 84,677 allegations closed or referred during the FY, we closed or referred
81,627 within 45 days.



November 2009                 SSA OIG FY 2009 Performance Report           Page 5
             Complete investigative fieldwork on 75 percent            FY 2009 Result
 Goal 2.3
             of all cases within 180 days.                               89 Percent

This measure is calculated by dividing the total number of investigations closed or referred
for prosecution, CMP, SSA or other State or Federal agency action within 180 days during
the FY by the total investigations closed or referred during the FY.

For FY 2009, we surpassed our 75 percent goal with a 89.3 percent rating. A total of 8,050
investigations were closed or referred during the FY. Of these, we closed or referred 7,185
cases for action within 180 days.

             Respond to 90 percent of congressional                    FY 2009 Result
 Goal 2.4
             requests within 21 days.                                   100 Percent

This measure is calculated by dividing the total congressional requests responded to within
21 days during the FY by the total number of congressional requests responded to during
the FY. Processing days are the days elapsed from receipt of a congressional request to the
date of a response.

For FY 2009, we achieved a 100 percent rating. Our office responded to 54 congressional
inquiries during the FY. We responded to 54 of them within 21 days.

             Take action on 90 percent of Civil Monetary
                                                                       FY 2009 Result
 Goal 2.5    Penalty (CMP) subjects within 30 days of
                                                                         97 Percent
             receipt.

This measure is calculated by dividing the total number of CMP subjects against whom
action was taken within 30 days of receipt during the FY by the total number of CMP
subjects where action was taken during the FY. Actions include sending initial letters,
requesting investigative assistance or closing the CMP.

For FY 2009, we took action on 2,351 CMP subjects. Action was taken on 2,290 of those
subjects (97 percent) within 30 days.




November 2009                SSA OIG FY 2009 Performance Report             Page 6
             Achieve a positive external user assessment               FY 2009 Result
 Goal 2.6
             rating of 85 percent for product-service quality.           92 Percent

This measure is calculated by using a five-tier rating scale measuring the degree of
satisfaction with OIG products and services by recipients and users, including SSA and
other government entities, such as Congress, Offices of U.S. Attorneys, and external law
enforcement agencies. The numeric response is translated into a percentage with 85 percent
indicating satisfaction.

For FY 2009, we achieved a 92 percent rating, exceeding the 85 percent goal.

             Issue 78 percent of final audit reports within 1          FY 2009 Result
 Goal 2.7
             year of the entrance conference with SSA.                   92 Percent

This measure is calculated by dividing the total number of audit reports issued during the
FY within 1 year of the entrance conference by the total number of audit reports issued
during the FY.

For FY 2009, our office achieved a 92 percent rating, exceeding our goal of 78 percent. We
issued a total of 104 reports during the FY. We issued 96 of these reports within 1 year of
their respective entrance conference.

             Complete 85 percent of requests for legal                 FY 2009 Result
 Goal 2.8
             advice and review within 30 days.                           98 Percent

This measure is calculated by dividing the total number of legal opinions, subpoenas and
audit reviews completed by the Office of Counsel to the Inspector General within 30 days of
receipt during the FY by the total number of requests for legal opinions, subpoenas and
audit reviews completed during the FY.

During FY 2009, we completed 951 of the 971 requests for legal opinions, subpoenas and
audit reviews (98 percent) within 30 days.




November 2009                SSA OIG FY 2009 Performance Report             Page 7
    Goal 3 - PEOPLE
   Promote a skilled, motivated, diverse workforce in a positive and rewarding work
                                     environment.

Strategies used to attain this goal include:

   1. Identify assignment interests and developmental needs of all employees.

   2. Provide OIG components with training and tools necessary to ensure professional
      development and skills enhancement.

   3. Maintain a proactive approach in recruiting and hiring candidates to meet
      different needs.

              Achieve an annual attrition rate of 5 percent or          FY 2009 Result
 Goal 3.1
                                  less.                                   4 Percent

This measure is calculated by dividing the total number of employees separated (excluding
retirements and deaths) during the FY by the OIG Average Workforce for the FY.

For FY 2009, there were 23 separations from the OIG’s 581.5 Average Workforce. This
resulted in a 4 percent attrition rate.

             Conduct an annual employee job-satisfaction
                                                                        FY 2009 Result
 Goal 3.2    survey and implement corrective action plans to
                                                                          78 Percent
             identify areas where improvement is needed.

OIG’s Organizational Health Committee implemented an annual employee job-satisfaction
survey beginning in FY 2006. SSA published results of a similar survey in September
2008, and defined a statistical strength as an item where at least 65 percent of employees
responded positively (e.g., strongly agree or agree). Using the SSA definition of statistical
strength, 12 of the 13 questions on the OIG survey had scores above 65 percent, and the
average score for all 13 questions was 78 percent positive. This showed that the health of
the OIG organization is strong.

Question 12 of this survey is the same question used on SSA’s survey and asks,
“Considering everything, how satisfied are you with your job?” In the OIG survey, 82
percent of our employees responded to this one question that they are either satisfied or very
satisfied with their jobs. This result represents a slight increase from our 81 percent
satisfaction rate in the baseline year of FY 2006, and is higher than the 70 percent rate
reported for SSA employees.




November 2009                 SSA OIG FY 2009 Performance Report            Page 8
             Ensure that 90 percent of OIG staff receives 40
                                                                      FY 2009 Result
Goal 3.3     or more hours of appropriate developmental
                                                                        99 Percent
             and skill-enhancement training annually.

This measure is calculated by dividing the total number of OIG staff on board for the entire
FY receiving at least 40 hours of training during the FY by the total number of OIG staff on
board for the entire FY.

For FY 2009, 99 percent of our employees received 40 or more hours of appropriate
developmental and/or skill-enhancement training. Achieving this goal demonstrates OIG’s
commitment to having an adept and proficient workforce. The continual development of
our employees underlies our successful performance as an organization.




November 2009               SSA OIG FY 2009 Performance Report             Page 9
                               HISTORICAL COMPARISON


                                                                        FY 2007     FY 2008
GOAL                           DESCRIPTION
                                                                       RESULTS     RESULTS
            Maintain an annual acceptance rate of at least
    1.1                                                                  97%         96%
            85 percent for all recommendations.
            Through FY 2010, achieve a 5-year average
            implementation rate of 85 percent for accepted
    1.2                                                                  90%         89%
            recommendations aimed at improving the integrity,
            efficiency and effectiveness of SSA.
            Achieve a positive action on at least 80 percent of all
    1.3                                                                  93%         93%
            cases closed during the FY.
            Generate a positive return of $4 for every tax dollar
    2.1 1                                                              $51 to $1   $42 to $1
            invested in OIG activities.
            Evaluate and respond to 90 percent of all allegations
    2.2                                                                  95%         95%
            received within 30 days.
            Complete investigative fieldwork on 75 percent of all
    2.3                                                                  92%         94%
            cases within 180 days.
            Respond to 90 percent of congressional requests within
    2.4                                                                  99%         98%
            21 days.
            Take action on 90 percent of Civil Monetary Penalty
    2.5                                                                  95%         94%
            (CMP) subjects within 30 days of receipt.
            Achieve a positive internal and external user
    2.6     assessment rating of 85 percent for                          88%         89%
            product-service quality.
            Issue 75 percent of final audit reports within 1 year of
    2.7 2                                                                93%         83%
            the entrance conference with SSA.
            Complete 80 percent of requests for legal advice and
    2.8 3                                                                98%         99%
            review within 30 days.
    3.1     Achieve an annual attrition rate of 5 percent or less.       4%          6%
            Conduct an annual employee job-satisfaction survey
    3.2     and implement corrective action plans to identify areas      82%         79%
            where improvement is needed.
            Ensure that 90 percent of OIG staff receives 40 or
    3.3     more hours of appropriate developmental and                  96%         96%
            skill-enhancement training annually.




1
  Goal 2.1 – FY 2008 $4 changed to $6
2
  Goal 2.7 – FY 2008 changed to 78%
3
  Goal 2.8 – FY 2008 changed to 85%


November 2009                   SSA OIG FY 2009 Performance Report             Page 10
